POSTAL REGULATORY COMMISSION

  OFFICE OF INSPECTOR GENERAL




         FINAL REPORT

INFORMATION SECURITY MANAGEMENT
   AND ACCESS CONTROL POLICIES

         Audit Report 10-02-A01
           December 17, 2010
Table of Contents


INTRODUCTION .......................................................................................................... 1

     Background .....................................................................................................................1

     Objectives, Scope, and Methodology ..............................................................................2

     Prior Audit Coverage .......................................................................................................3

RESULTS ...............................................................................................................................3

     Follow up on Prior Audit Recommendations ..................................................................3

            Recommendation 1 ...................................................................................................4
            Management’s Comments ........................................................................................5
            Evaluation of Management’s Comments ..................................................................5

           Recommendation 2 ....................................................................................................5
           Management’s Comments .........................................................................................6
           Evaluation of Management’s Comments ...................................................................6

     Access Controls ...............................................................................................................6

           Recommendation 3 ....................................................................................................7
           Management’s Comments .........................................................................................7
           Evaluation of Management’s Comments ...................................................................7

APPENDIX A ............................................................................................................... 8

APPENDIX B ............................................................................................................... 10
Information Security Management and Access Control Policies                                                       10-02-A01



Introduction
Background
This document presents the results of our follow up audit on Federal Information Security
Management Act (FISMA) compliance activities and access controls in the Postal Regulatory
Commission’s (PRC) information security policy. 1 Our objective was to determine whether the
control issues identified and recommendations made in the 2008 FISMA audit have been
sufficiently addressed, and whether the PRC Information Technology (IT) security policy is
adequate to prevent unauthorized access to PRC data and resources.

In a November 2008 report to the PRC Chairman, 2 the PRC Office of Inspector General (OIG)
presented the results of our audit work on compliance with FISMA and implementation of
security controls. The November 2008 report identified twelve areas of concern related to
FISMA compliance and included three recommendations to strengthen its security information
program, revise its IT Plan of Actions and Milestones (POAM) document, and list its database
containing Personally Identifiable Information (PII) as a separate system in future FISMA
reports. In an April 2010 report, 3 the PRC OIG presented the results of audit work on physical
access controls related to the handling of non-public information in response to requests by
Congress and the PRC Chairman. Subsequent to this report, Congress expressed an interest in
controls the PRC has implemented to protect sensitive information provided by the U.S. Postal
Service. During this audit, we reviewed follow-up activities addressing recommendations in the
November 2008 report and the adequacy of access controls in PRC’s information security policy.

FISMA (Title III of the E-Government Act) 4 provides a framework for securing government
information technology. FISMA requires federal agencies to develop, document, and implement
an enterprise-wide program to provide information security for the information and its systems
that support the operations and assets of the agency.

FISMA requires micro agencies 5 to submit information on their system’s inventory, as well as
the status of its certification and accreditation program. In addition, micro agencies must submit
information on the status of security configuration management, incident response and reporting,
security training, plans of action and milestones, remote access, account and identity
management, continuous monitoring, contingency planning, as well as oversight of contractor’s
systems. Micro agencies, including PRC, must submit FISMA annual report information via
CyberScope. 6



1
  Postal Regulatory Commission Information Security Policy, Version 1.7, dated March 17, 2008.
2
  FISMA Compliance and Information Security Controls, Report Number AR-08-02A-02, dated November 14, 2008.
3
  Postal Regulatory Commission’s Handling of Non-Public Information, Report Number 10-01-A01, dated April 10, 2010. The
PRC-OIG conducted this audit with assistance from the Inspections and Evaluation Staff of the Treasury Inspector General for
Tax Administration.
4
  Public Law 107-347, Title III – Information Security, Section 301, Subsection 3541, enacted December 17, 2002.
5
  Micro agencies employ 100 or fewer full time employees.
6
  CyberScope is the platform for the FY 2010 FISMA submission process.

                                                              1
Information Security Management and Access Control Policies                              10-02-A01


OMB policies require federal agencies to follow National Institute of Standards and Technology
(NIST). Because of FISMA, NIST has implemented the FISMA Implementation Project, which
promotes the development of key security standards and guidelines to support the
implementation of and compliance with FISMA. NIST is responsible for developing information
security standards and guidelines, including minimum requirements for federal information
systems. NIST publishes the Federal Information Processing Standards, which governs the
minimum security requirements. The minimum security requirements cover 17 security-related
areas designed to protect the confidentiality, integrity, and availability of federal information
systems and the information processed, stored, and transmitted by those systems. Access control
is one of the 17 security requirements and requires organizations to limit information system
access to authorized users, as well as processes acting on behalf of authorized users. NIST access
controls also require organizations to limit information system access to the types of transactions
and functions that authorized users are permitted to exercise. Organizations are also required to
develop, disseminate, and review/update a formal and documented access control policy. Access
control areas include, but are not limited to, authorizations for logical access, separation of
duties, least privilege, unsuccessful login attempts, and encryption. Additionally, organizations
should establish personnel security requirements including security roles and responsibilities for
third-party providers and monitor provider compliance. Third-party providers include contractors
and other organizations providing information system development, IT services, and network
and security management.

Objectives, Scope, and Methodology
Our audit objectives were to determine whether the control issues identified and
recommendations made in the 2008 FISMA audit have been sufficiently addressed, and whether
the PRC’s IT security policy is adequate to prevent unauthorized access to PRC data and
resources.

To accomplish our objectives, we interviewed key PRC personnel and reviewed relevant
policies, procedures, and other documentation. We reviewed fiscal years 2008, 2009, and 2010
FISMA reporting requirements, the PRC’s 2008 annual FISMA report submitted to OMB, as
well as the January 2008 and April 2010 prior audit reports. We also reviewed the PRC’s
security plan, performance metrics, Continuity of Operations Plan (COOP), intrusion reports,
and other relevant documents to determine actions taken to address the issues and
recommendations in the November 2008 audit report. We reviewed the PRC’s information
security policy as well as various NIST publications related to access controls and encryption.
We compared the Postal Regulatory Commission Information Security Policy to NIST access
controls and Postal Service’s Handbook AS-805, Information Security.

An audit team on detail from the United States Postal Service OIG conducted this performance
audit from June through December 2010 in accordance with generally accepted government
auditing standards and included such tests of internal controls as we considered necessary under
the circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. We discussed our observations

                                                2
Information Security Management and Access Control Policies                            10-02-A01


and conclusions with management officials on November 18, 2010, and included their comments
where appropriate.

We did not assess the reliability of computer generated data.

Prior Audit Coverage
Postal Regulatory Commission’s Handling of Nonpublic Information (Report Number 10-01-
A01 dated April 30, 2010). PRC OIG made two recommendations to PRC management
regarding the development of a formal training program on security requirements for
safeguarding non-public information, and the development of a method of reporting security
incidents related to nonpublic information. The PRC made a commitment to implement these
recommendations.

FISMA Compliance and Information Security Controls (Report Number AR-08-02A-02 dated
November 14, 2008). PRC OIG made three recommendations to PRC management to strengthen
its information security program, revise its information technology Plan of Actions and
Milestones document, and list its database containing PII as a separate system in future FISMA
reports. PRC management agreed with all the recommendations.

Information Technology Governance and Information Security Planning (Report Number 07-
02A-01 dated January 30, 2008). PRC-OIG made five recommendations to PRC management:
that the PRC complete a formal information security plan; implement an organizational structure
with defined roles and responsibilities; develop formal information security policies and
procedures; document PRC’s enterprise architecture; and implement an ongoing monitoring plan
with achievable and realistic goals. PRC management agreed with all five recommendations.

Results
The PRC is progressing in some areas of its IT security program. However, the PRC has not
sufficiently addressed the areas of concern and fully implemented recommendations one and two
identified in our November 2008 audit report. In addition, access controls in PRC’s information
security policy could be strengthened by aligning the policy with NIST access control standards.

Follow up on Prior Audit Recommendation
While the PRC made progress to address the three recommendations listed in the November
2008 audit report, recommendations one and two remain open.

The November 2008 audit report listed twelve areas of concern, six of which the PRC addressed
before the final report was issued. In response to the prior report first recommendation, the
Commission agreed to continue to strengthen its information security program in accordance
with FISMA. However, our follow up review determined that the PRC has not taken action to
address concerns in four areas:


                                                3
Information Security Management and Access Control Policies                                                         10-02-A01


        The PRC’s PII Breach Notification Policy 7 does not address rules of behavior and
         corrective actions for failure to protect PII as required by the Office of Management and
         Budget (OMB) policy. 8 PRC management acknowledged the omission and indicated that
         this is due to recent turnover in PRC IT personnel.

        PRC has not completed the implementation of its incident policy or procedures for
         reporting security incidents to the Computer Emergency Response Team in accordance
         with FISMA requirements and NIST standards. 9 Although the PRC revised its incident
         reporting guidelines from the draft version we reviewed in the 2008 audit, these
         guidelines remain in draft. PRC management has not approved these policies because
         PRC IT has not completed their penetration testing of the PRC network.

        The PRC has not finalized their COOP or conducted the final testing of the COOP. This
         occurred because the PRC rate adjustment hearings took priority, and the network could
         not be disrupted while the hearings were being conducted. Policy 10 requires the
         development and testing of a contingency plan.

        The three performance metrics 11 PRC identified to measure the effectiveness and
         efficiency of security policies and procedures were not different from the ones used in the
         FISMA reporting instructions. FISMA 12 requires agencies to develop three performance
         metrics used to measure effectiveness and efficiency of security policies and procedures.
         These metrics must be different from the ones used in the FISMA reporting instructions.
         This occurred because management was not aware of this requirement.

Addressing these four issues will strengthen the PRC’s information security program and
improve the protection of sensitive information.

We recommend the Postal Regulatory Commission:

1. Continue to strengthen its information security program in accordance with the Federal
   Information Security Management Act by:

             addressing rules of behavior and corrective actions for failure to protect personally
              identifiable information in its Personally Identifiable Information Breach Notification
              Policy;


7
  Personally Identifiable Information Breach Notification policy dated October 3, 2008.
8
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information,
Attachment 4: Rules and Consequences, dated May 22, 2007.
9
  NIST Special Publication 800-53 Revision 3, Information Security, dated August 2009, pages F63 and F64.
10
   NIST Special Publication 800-34, Revision 1, Contingency Planning Guide for Federal Information Systems, dated May 2010;
NIST Special Publication 800-53 Revision 3, Information Security, dated August 2009, and Postal Rate Commission,
Information Security Policy dated March 17, 2008.
11
   The PRC identified their three performance metrics as (1) number of incidents, (2) number of attempts, and (3) response
relating to intrusion incidents.
12
   OMB M-09-29, FY 2009 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, dated August 20, 2009. Chief Information Officer Questions, Question 9: Performance Metrics for Security
Policies and Procedures, Question 4: Incident Detection, Monitoring, and Response Capabilities; and Question 8: Incident report.

                                                               4
Information Security Management and Access Control Policies                                   10-02-A01


               completing the implementation and finalizing its incident policy or procedures for
                reporting security incidents to the National Computer Emergency Response Team;

               finalizing and conducting tests of their Continuity of Operations Plan; and

               developing the performance metrics for effectiveness and efficiency of security
                policies and procedures.

       Management’s Comments

       PRC Management provided a response to a draft of this audit report on December 15, 2010.
       A copy of that response is included as Appendix B of this report. Management agreed with
       this recommendation and committed to implement the four items above by June 3, 2011.

       Evaluation of Management’s Comments

       Management’s comments are responsive to the recommendation, and the action taken or
       planned should correct the issue identified.

In response to the 2008 audit report second recommendation, the Commission agreed to revise
its POAM to reflect the mapping of specific program and system-level security weaknesses,
remediation needs, resources required for implementation, and scheduled completion dates; and
to ensure its actions are aligned with its long and short-term strategic goals and mission. The
target completion date was June 2009.

Our follow up review noted the progress PRC has made from its 2008 POAM to address specific
program and system-level security weaknesses, remediate its needs, and identify resources
required for implementation, as required by FISMA. 13 Overall, PRC has completed 73% of the
items listed in the 2010 POAM while 27% of the items are in progress. However, we also noted
that the PRC does not consistently document completion or anticipated completion dates in the
POAM. For example, the PRC has not documented completion dates for any of the 46 completed
items in the 2010 POAM. This occurred because of recent turnover in PRC IT personnel.

Completion of the POAM will ensure PRC’s actions are aligned with its long and short term
strategic goals and mission.

We recommend the Postal Regulatory Commission:

2. Complete the Information Technology Plan of Actions and Milestones to reflect scheduled
   completion dates to ensure its actions align with its long and short-term strategic goals and
   mission.




13
     OMB M-09-29, pages 9 and 12.

                                                     5
Information Security Management and Access Control Policies                                                        10-02-A01


     Management’s Comments

     Management agreed with this recommendation, and committed to updating its POAM by
     June 3, 2011.

     Evaluation of Management’s Comments

     Management’s comments are responsive to the recommendation, and the action taken or
     planned should correct the issue identified.

In response to the 2008 audit report third recommendation, the PRC agreed to list its database
containing PII as a separate system in future FISMA reports if they could not remove PII from
the database due to continual use for mission purposes. We were unable to determine whether the
PRC listed its database 14 as a separate system because the PRC has not filed their 2009 annual
FISMA report with OMB. In addition, PRC has not removed the PII from the database. Policy
states all information systems should be included as part of the FISMA report. 15 This oversight
occurred because the PRC has experienced a recent turnover in their IT staff.

Effectively managing sensitive information ensures controls are in place to protect employee
privacy.

Corrective Action: The PRC listed the database containing PII in its 2010 annual FISMA report;
therefore, we will not make a recommendation.

Access Controls
The PRC information security policy addresses 10 of the 16 access controls standards required
by NIST. However, the policy only partially addresses five standards and one standard is not
addressed. This occurred because recent turnover of PRC IT personnel resulted in delays in
updating the security policy. In addition, we noted that the PRC information security policy
addresses six related identification 16 and authentication 17 controls required by NIST.

NIST provides access control standards for low, moderate and high impact systems as defined by
Federal Information Processing Standards. 18 We reviewed the 16 NIST baseline access controls
for all system impact levels along with the seven accompanying enhanced controls for moderate
and high impact systems. The PRC has categorized its information and information systems as
moderate and high, which requires compliance with baseline controls and applicable enhanced
controls. See Appendix A for details on our review of PRC’s information security policy
compliance.

14
   The Admin Database is a Microsoft Access file that maintains employee information including PII.
15
   OMB M-09-29, FY 2009 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, dated August 20, 2009 and CIO Questions Attachment.
16
   Identification is the process of associating a person or information resource with a unique enterprise wide identifier (for
   example, a user logon ID).
17
   Authentication is the process of verifying the claimed identity of an individual, workstation, or originator.
18
   Federal Information Processing Standards Publication 199, Standards for Security Categorization of Federal Information and
Information Systems, dated February 2004.

                                                               6
Information Security Management and Access Control Policies                             10-02-A01




We also compared the PRC information security policy to the Postal Service Handbook AS-805,
Information Security, to benchmark the Postal Service’s access control policy. 19 While the PRC
information security policy includes most of the security controls listed in Handbook AS-805, it
only partially addresses remote access, wireless access, and minimum standards for encryption.
The PRC policy also does not state whether laptops and notebook computers are or should be
encrypted. In addition, the PRC information security policy does not define personal
identification numbers, smart cards and tokens, or biometrics. The PRC is not required to follow
Postal Service Handbook AS-805; therefore, we are not making a recommendation.

The implementation of access controls protects the confidentiality and integrity of information
from unauthorized users.

We recommend the Postal Regulatory Commission:

3. Update the PRC Information Security Policy to reflect access controls that align with
   National Institute of Standards and Technology access control standards.

       Management’s Comments

       Management agreed with this recommendation and committed to update its information
       security policy by June 3, 2011.

       Evaluation of Management’s Comments

       Management’s comments are responsive to the recommendation, and the action taken or
       planned should correct the issue identified.




19
     Postal Service Handbook AS-805, Information Security, dated November 2009.

                                                              7
Information Security Management and Access Control Policies                                    10-02-A01


                               APPENDIX A: DETAILED ANALYSIS

                                           Access Controls

                          Table 1. PRC Compliance with NIST Access Controls.

       NIST STANDARDS                       PRC INFORMATION SECURITY POLICY STATUS
                                                             Enhancements
                                      Baseline Addressed
                                                              Addressed
         Control              Code                                                      Details
                                     Yes   Partially   No   Yes   Partially
1. Access Control Policy      AC-1    X
and Procedures
2. Account Management*        AC-2    X                              X        a) Temporary and
                                                                              emergency accounts are not
                                                                              specifically identified or
                                                                              addressed. b) The policy
                                                                              does not indicate the access
                                                                              will be automatically
                                                                              terminated after a defined
                                                                              period.
3. Access Enforcement         AC-3    X
4. Information Flow           AC-4    X
Enforcement
5. Separation of Duties       AC-5    X
6. Least Privilege *          AC-6    X                              X        The policy does not state
                                                                              users of information system
                                                                              accounts, or roles with
                                                                              access to defined/specific
                                                                              security functions or
                                                                              security-relevant
                                                                              information are required to
                                                                              use non-privileged
                                                                              accounts (for example,
                                                                              accounts with read-only
                                                                              access), or roles, when
                                                                              accessing other system
                                                                              functions.
7. Unsuccessful Login         AC-7    X
Attempts

8. System Use Notification    AC-8    X




                                                   8
Information Security Management and Access Control Policies                                            10-02-A01


        NIST STANDARDS                          PRC INFORMATION SECURITY POLICY STATUS
                                                                     Enhancements
                                         Baseline Addressed
                                                                      Addressed
          Control             Code                                                              Details
                                        Yes    Partially   No       Yes   Partially
 9. Concurrent Session        AC-10               X                                   The policy does not
 Control                                                                              address limitations on the
                                                                                      number of concurrent
                                                                                      sessions allowed by the
                                                                                      information systems as
                                                                                      required. Rather, it
                                                                                      indicates the information
                                                                                      resource must provide the
                                                                                      administrator-configurable
                                                                                      capability to limit the
                                                                                      number of concurrent
                                                                                      logon sessions for a given
                                                                                      user.
 10. Session Lock             AC-11      X                          X
 11. Permitted Actions        AC-14      X                          X
 without Identification or
 Authentication *
 12. Remote Access *          AC-17      X                          X
 13. Wireless Access *        AC-18               X                 X                 The policy does not
                                                                                      specifically cover the
                                                                                      enforcement of wireless
                                                                                      connections to information
                                                                                      systems.
 14. Access Control for       AC-19      X                          X
 Mobile Devices *
 15. Use of External          AC-20      X                                   X        The policy does not: a)
 Information Systems *                                                                address approved
                                                                                      information system
                                                                                      connection or processing
                                                                                      agreements with
                                                                                      organizational entities
                                                                                      hosting external
                                                                                      information systems; b)
                                                                                      provide specific limitations
                                                                                      on the use of their portable
                                                                                      storage media by
                                                                                      authorized individuals on
                                                                                      external information
                                                                                      systems.
 16. Publicly Accessible      AC-22                         X                         The policy does not contain
 Content                                                                              specific language that
                                                                                      addresses this control.
*These access controls include baseline and enhancement controls.




                                                       9
Information Security Management and Access Control Policies   10-02-A01


                       APPENDIX B: MANAGEMENT RESPONSE




                                             10
Information Security Management and Access Control Policies   10-02-A01




                                             11
